Office of Inspector General

        SEMIANNUAL
         REPORT TO
         CONGRESS

For the Period April 1, 2007 through September 30, 2007



                Report No. 37




  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                         unethical conduct involving Federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                    Call the OIG Hotline

                                      (202) 606-8423



                                      Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                            Fax

                                      (202) 606-8329


                                  Electronic Mail Hotline

                                        oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential
     NATIONAL                                                               OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                              1100 PENNSYLVANIA AVE., NW
     FOR THE                                                                WASHINGTON, D.C. 20506
     HUMANITIES                                                             ROOM 419
                                                                            TELEPHONE(202) 606-8350
                                                                            FACSIMILE (202) 606-8329
                                                                            E-mail oig@neh.gov


                                      October 31, 2007

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to
Congress for the second half of fiscal year 2007. The report is submitted in accordance with
the Inspector General Act of 1978, as amended. Section 5 of the Act requires that you sub-
mit this report, with your Report of Final Action, to the appropriate committee or subcom-
mittee of the Congress within 30 days of its receipt. The report provides a summary of the
activities of the OIG during the six-month period ended September 30, 2007.

During the current period, auditors completed and issued final reports concerning NEH and
grantee operations. Internal work involved three reviews of the NEH information security
program and one review of the agency’s effort related to the Federal Managers’ Financial
Integrity Act. We issued one advisory memorandum concerning the travel policies and pro-
cedures for the program divisions and offices. External effort consisted of three desk
reviews of grantee compliance with Office of Management and Budget Circular A-122 per-
taining to time and effort reporting; one inspection of the eligibility of gifts certified for
matching on a NEH challenge grant; four reviews of grantee overhead rates; and review of
82 OMB Circular A-133 audit reports. In addition, we issued a revised strategic plan for the
period 2007-2012 and a memorandum on NEH’s Management Challenges; performed a peer
review of the audit operations of another Office of Inspector General; and our audit opera-
tions had a peer review performed by a different OIG.

In our investigations program, we received eight “Hotline” contacts. As of September 30,
2007, two matters remain open. The OIG also provided investigative assistance to the Insti-
tute of Museum and Library Services.

Significant progress has been made concerning the segregation of duties material weakness
noted during prior audits of the agency’s financial statements. I appreciate your support and
look forward to working with you and all agency staff to further our common purpose of as-
suring the effectiveness, efficiency and integrity of NEH’s vital contributions to the humani-
ties.
                                              Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS


LETTER TO THE CHAIRMAN

MESSAGE FROM THE INSPECTOR GENERAL………………………………………………                                                                              1

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          2

THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       2

AUDIT AND REVIEW ACTIVITIES .......................................................................................               3

INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                              9

OTHER ACTIVITIES..............................................................................................................   11

MANAGEMENT CHALLENGES………………………………………………………………….                                                                                  13

PRIOR AUDIT REPORTS UNRESOLVED……………………………………………………...                                                                            15

TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        16

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 17
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      17
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      18

STRATEGIC PLAN…………………………………………………………………………………                                                                                    19
                       MESSAGE FROM THE INSPECTOR GENERAL

           Over the past several years, our workload has constantly increased in volume and complexity and,
           as a consequence, oversight of the Endowment’s grantees by the OIG is diminishing.

           The OIG is responsible for contracting with and reviewing the work of an independent public ac-
           countant that conducts the annual financial statements audit. The audit is required by the Account-
           ability of Tax Dollars Act of 2002, and applies to many small agencies as well as the Endowment.
           The Federal Information Security Management Act (FISMA) review has been performed for several
           years as required. Each year the Office of Management and Budget (OMB) issues guidance for
           the review. The National Institute for Standards and Technology (NIST) Computer Security Divi-
           sion issues publications that the agency is responsible for implementing. The OIG is responsible
           for reviewing the agency’s implementation. The General Accountability Office and the President’s
           Council on Integrity and Efficiency periodically update their various guidance on auditing, inspec-
           tions and reviews, and investigations. This increases the burden on the OIG.

           OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, issued
           pursuant to the Single Audit Act of 1984, (as amended), sets forth audit guidance applicable to the
           expenditure of Federal awards by non-Federal entities. The threshold for an audit is the expendi-
           ture of $500,000 or more in a fiscal year. Consequently, the threshold level eliminates audits for a
           significant number of non-profit organizations that receive grants from the Endowment, including
           approximately 17 of the 56 state humanities councils.

           Another impact on our oversight of grantees is internal and grantee investigations. Opening an
           investigation has a significant impact on our audit plan because we do not have staff dedicated to
           investigation work. Therefore, it becomes necessary to reassign audit staff trained in investigation
           work to perform the investigation. With significant fluctuations on a yearly basis, it is difficult to be
           proactive in investigations or realistically budget staff time for this effort. Also, during the past sev-
           eral years the NEH Office of General Counsel has operated with fewer staff than previously. The
           deputy general counsel is also the General Counsel to the IG. Therefore, we have been operating
           without counsel for some time.

           Our suggested solution concerning these issues is to enter into contracts for a part-time attorney
           and a part-time auditor. Both positions would require the individuals to have prior Federal govern-
           ment service in a department or agency that engages in grant making.




NEH OIG Semiannual Report                                       1                                                       April 2007
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Con-
      gress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act estab-
      lished the National Endowment for the Humanities as an independent grant-making agency of the Fed-
      eral government to support research, education, and public programs in the humanities. Grants are
      made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership. The divisions
      and offices also administer the We the People: NEH’s American History initiative.

      The Act that established the National Endowment for the Humanities says "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics;
      literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criti-
      cism, and theory of the arts; those aspects of social sciences which have humanistic content and em-
      ploy humanistic methods; and the study and application of the humanities to the human environment
      with particular attention to reflecting our diverse heritage, traditions, and history and to the relevance of
      the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Of-
       fices of Inspector General in several departments and in thirty-three agencies, including the NEH. The
       NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an impor-
       tant aspect of the Act. For example, the IG: cannot be prevented from initiating, carrying out, or com-
       pleting an audit or investigation, or from issuing any subpoena; has access to all records of the
       agency; reports directly to the Chairman, and can only be removed by the Chairman, who must
       promptly advise Congress of the reasons for the removal; and reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The In-
       spector General is also responsible for keeping the Chairman and Congress fully and currently in-
       formed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secre-
       tary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of Understanding
       detailing the procedures for the OIG to be provided with OGC legal services. Investigations are han-
       dled by the Inspector General, an auditor, and as required by the agency’s Deputy General Counsel.




NEH OIG Semiannual Report                                      2                                                       April 2007
                                     AUDIT AND REVIEW ACTIVITIES
                                                   LIST OF REPORTS ISSUED
    This office is responsible for external and internal audits. External auditing includes grants, pre-award
    accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk reviews, limited
    scope desk reviews, and on-site quality control reviews of CPA workpapers. Internal efforts consist of
    audits, inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

    Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of
    1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to
    Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
    Value of Unsupported Costs”), [see Table II].
                                                                       Report Number                 Date Issued
   INTERNAL AUDITS/REVIEWS

             Federal Information Security Management Act               OIG-07-01 (IR)                09/24/07
             Review – Review of Security Awareness Program

             Fiscal Year Ended September 30, 2007 Consoli-             OIG-07-02 (IR)                09/24/07
             dated Review of the Federal Managers’ Financial
             Integrity Act (FMFIA)

             Federal Information Security Management Act        OIG-07-03 (IR)                       09/24/07
             Review – Compliance with OMB Memorandum
             M-07-06, Validating and Monitoring Agency Issuance
             of Personal ID Credentials and the NEH Homeland
             Security Presidential Directive (HSPD) -12
             Implementation Plan

             Federal Information Security Management Act       OIG-07-04 (IR)                        09/27/07
             Review – Federal Information Security Act (FISMA)
             Reporting Document to the OMB

             Review of Travel Policies and Procedures                  Advisory Memorandum           09/27/07
             for the Program Divisions and Offices

   EXTERNAL AUDITS/REVIEWS

             GWETA                                                     OIG-07-04 (DR) 1              04/30/07
             Educational Broadcasting Corporation                      OIG-07-05 (DR) 1              06/06/07
             Save Ellis Island!                                        OIG-07-06 (DR) 1              06/13/07
             City Lore                                                 OIG-07-01 (I) 2               08/29/07

             OVERHEAD DESK REVIEWS

             American Library Association                              NEH-07-06 (ODR)               03/14/07
             Bill of Rights Institute                                  NEH-07-07 (ODR)               06/28/07
             Library of America                                        NEH-07-08 (ODR)               07/18/07
             Elmira College                                            NEH-07-09 (ODR)               09/28/07

             SINGLE AUDIT ACT REVIEWS                                                     - see Page 11
             82 OMB Circular A-133 Reports

             1
               Desk review of compliance with OMB Circular A-122
                 concerning support for salaries and wages
             2
               Inspection


NEH OIG Semiannual Report                                          3                                               April 2007
                                    AUDIT AND REVIEW ACTIVITIES
                                           SUMMARY OF REPORTS ISSUED
                                                   INTERNAL AUDITS/REVIEWS

                                   Federal Information Security Management Act Review
                                      Review of Security Awareness Program (SAP)
                                             September 24, 2007; OIG-07-01 (IR)

     The purpose of our review was to determine compliance with OMB Circular A-130 Appendix III, (the Circular) and
     NEH policy concerning (1) the frequency of the SAP presentation, (2) the contents of the SAP, (3) what happens
     to new users who do not complete the SAP, and 4) whether new users, contractors, volunteers, etc. are required
     to complete the SAP before getting access. We reviewed the documentation on the prior and current SAP pres-
     entation, the content of the current SAP presentation, and the current procedures used for granting access to new
     system users. Where applicable, we compared them to the Circular and NEH policy. We also spoke with the
     Deputy Director of the Office of Human Resources (OHR) and the Information Security Officer concerning the
     SAP.

     We found:

     •    the procedures for granting computer access to new users are not in compliance with the Circular. The Circu-
          lar states that this training should ensure that all individuals are appropriately trained in how to fulfill their se-
          curity responsibilities before allowing them access to the system. The current procedures are that the OHR
          provides a copy of the Rules of Behavior to all new employees, contractors, volunteers, etc. when they are
          issued an identification badge. These individuals are required to sign a certification that they are responsible
          for reading the Rules of Behavior but there is no way to ensure that it has been read. The issuance of the
          Rules of Behavior and the signed certification are the only security awareness information that new users
          receive as they are not required to complete the SAP prior to being granted access to the computer system.
          While these procedures are not in compliance with the Circular, we believe they should be retained and sup-
          plemented with new users having to complete the SAP before gaining access to the computer system.

     •    that NEH policy, as publicized in the Rules of Behavior, should be amended to change the mandatory security
          training to annual instead of periodic. The current policy is in compliance with the Circular, however, this
          change would be effective in strengthening computer security awareness within the agency.

     NEH agreed with our findings.

                                        Fiscal Year Ended September 30, 2007 Consolidated
                                             Review of the Federal Managers’ Financial
                                                        Integrity Act (FMFIA)
                                                 September 24, 2007; OIG-07-02 (IR)

     The objective of this review was to determine whether information submitted by each division director and office
     head provides reasonable assurance to the Chairman that they complied with the Act. The review covers fiscal
     year 2007.

     We informed the Chairman that the reviews complied with the Act.




NEH OIG Semiannual Report                                       4                                                     April 2007
                                   AUDIT AND REVIEW ACTIVITIES

                                         INTERNAL AUDITS/REVIEWS (Continued)


         Federal Information Security Management Act Review – Compliance with OMB Memorandum M-07-06
        Validating and Monitoring Agency Issuance of Personal ID Credentials and the NEH Homeland Security
                                Presidential Directive (HSPD) -12 Implementation Plan
                                         September 24, 2007; OIG-07-03 (IR)

    The purpose of our review was to determine NEH’s compliance with M-07-06 and the Implementation Plan. We re-
    viewed the Implementation Plan, inquired if NEH issued any Personal Identity Verification (PIV) credentials, and in-
    quired as to the status of the contract with the General Service Administration (GSA) Federal Acquisition Service
    who is NEH’s service provider for PIV credentials. We also reviewed NEH’s public website to determine if any quar-
    terly status reports were posted as required by M-07-06. The OIG also communicated with OMB regarding timelines
    in M-07-06 and for clarification of what was to have occurred by the October 27, 2006 deadline.

    We found NEH did not begin issuing HSPD-12 credentials in accordance with the Implementation Plan provided to
    OMB. Our inquiry to OMB indicated that, in order to be compliant with the October 27, 2006 deadline in M-07-06,
    agencies were to follow the schedule in their implementation plans. This plan called for NEH to start issuing compli-
    ant cards in June 2006 and to be in full compliance with HSPD-12 by October 2006. As of August 2007, NEH had
    not issued any credentials. Our review showed that NEH’s Implementation Plan was heavily dependent on the ser-
    vice provider meeting the required timelines. When the service provider encountered problems, this caused delays
    in NEH meeting the timelines set in the Implementation Plan. The agency also has not begun posting quarterly up-
    date reports to NEH’s public website on the number of PIV credentials issued. Since no credentials have been is-
    sued, NEH has not posted information to the public website. It was the understanding the Director of the Office of
    Human Resources (HSPD-12 Point of Contact) that PIV credentials had to be issued before information could be
    posted.

    NEH agreed with our finding.


           Federal Information Security Management Act Review – Federal Information Security Act (FISMA)
                                          Reporting Document to the OMB
                                         September 27, 2007; OIG-07-04 (IR)

    The purpose of this template/document is to report the results of our annual FISMA review to OMB. This template/
    document along with our other reviews is part of our total FISMA submission to OMB and is to be included with the
    agency’s FISMA submission. NEH agreed with what the OIG reported in its FISMA document and while progress
    has been made, we believe that further steps need to be taken to improve security.


                      Review of Travel Policies and Procedures for the Program Divisions and Offices
                                       September 27, 2007; Advisory Memorandum

    We studied the travel policies and procedures used by NEH’s program divisions and offices. The purpose was to
    learn the best practices used by each division or office and to develop a document that programs can use. We con-
    sidered providing guidance to all programs in developing a policy that provides for transparency and accountability.

    Due to limited travel funds, each office sets their own priority on the use of travel funds. We found that some pro-
    gram divisions/offices provide for professional development related to a staff’s educational discipline, while others do
    not. We will convene a meeting with the assistant chairman for programs and program office heads to determine if a
    single agency-wide policy is practicable. A written agency-wide policy would help managers in directing their staff
    and promote consistency throughout the agency concerning the use of travel funds.




NEH OIG Semiannual Report                                    5                                                       April 2007
                                      AUDIT AND REVIEW ACTIVITIES
                                                     EXTERNAL AUDITS/REVIEWS


                                                               GWETA, Inc
                                                     April 30, 2007; OIG-07-04 (DR)

         The objective of our review was to assess the adequacy of the time and effort accounting policies and proce-
         dures implemented by GWETA to ensure compliance with OMB Circular A-122. Our review included em-
         ployee timesheets, payroll-related reports, and general ledger documentation for the period December 16,
         2005 thru February 24, 2006.

         We concluded that procedures implemented by GWETA are adequate to ensure compliance with the re-
         quirements set forth in OMB Circular A-122 concerning support of salaries and wages. However, we found
         instances where the:

                   •    timesheets submitted did not comply with the GWETA timesheet procedures. These areas of
                        non-compliance dealt with the supervisor not signing and dating timesheets.

                   •    hours reported on the different sections of the non-exempt employee timesheets did not agree.

                   •    accounting codes used on employee timesheets did not agree with the accounting codes used
                        on the Staff Allocation reports and the general ledger.


                                            Educational Broadcasting Corporation
                                                June 6, 2006; OIG-07-05 (DR)

         The objective of this desk review was to assess the adequacy of the time and effort accounting policies and
         procedures implemented by Educational Broadcasting Corporation (EBC) to ensure compliance with OMB
         Circular A-122. This review included employee timesheets and Payroll Authority documents, payroll regis-
         ters, and general ledger posting reports as they related to projects supported by NEH grants during the pe-
         riod November 1, 2005 thru January 31, 2006.

         We found that the organization’s time and effort accounting policies and procedures are adequate to ensure
         compliance with OMB Circular A-122 concerning support of salaries and wages. However, during the
         course of our review, we learned that charges related to personal services rendered by individuals associ-
         ated with NEH-supported projects may also originate from the organization’s accounts payable system or be
         based on journal entries. Compensation to individuals that are not on EBC’s payroll is reflected in the or-
         ganization’s accounting records as accounts payable transactions. On the contrast, these “labor” charges
         are related to positions listed in the NEH-approved project budgets under the caption, Salaries and Wages
         (Thirteen/WNET staff liquidated rate including salary, benefits, office, phone), which implies that the individu-
         als expected to perform in the positions are payroll employees of EBC.

         We suggested, in the interest of complete disclosure, that future project budgets submitted by the organiza-
         tion to NEH be annotated in a manner to distinguish those positions listed under the caption, Salaries and
         Wages, which will be filled by EBC employees versus non-employees of the organization, (to the extent that
         is known at the time of the budget submission).


                                                      Save Ellis Island!
                                                June 13, 2007; OIG-07-06 (DR)

         The objective of this desk review was to assess the adequacy of the time and effort accounting policies and
         procedures implemented by Save Ellis Island! (SEI) to ensure compliance with OMB Circular A-122. This
         review included employee timesheets, the payroll report, general ledger postings, and adjusting journal en-
         tries related to the period April 1, 2006 thru June 30, 2006.



NEH OIG Semiannual Report                                      6                                                     April 2007
                                  AUDIT AND REVIEW ACTIVITIES

                                       EXTERNAL AUDITS/REVIEWS (Continued)

     We concluded that procedures are in place at SEI that would ensure compliance with the requirements set forth
     in OMB Circular A-122 concerning support of salaries and wages. However, the timesheets, as prepared by
     employees, are not used as the basis for charges to NEH grants, which effects a condition of noncompliance
     with the requirements of the circular. At the end of the grant period, an official of the organization determines
     how much effort was spent on the respective NEH project. The accounting department then makes a journal
     entry to allocate salaries and wages to the NEH grant.

     We advised the organization that salary charges to NEH grants that are not based on timesheets, as prepared
     by the respective employee(s), is subject to disallowance by NEH auditors. Furthermore, the timing of charges
     to NEH grants should be in reasonable proximity to the period in which the effort was actually expended. The
     organization has responded that, effective with the week ending June 15, 2007, a new procedure was imple-
     mented to satisfy the requirements.

                                                       City Lore
                                             Inspection of Challenge Grant
                                             August 29, 2007; OIG-07-01 (I)

     The purpose of the inspection was to determine whether donations certified by City Lore were eligible to re-
     lease Federal matching funds, and if City Lore, in keeping with the stated purpose of the challenge grant, estab-
     lished a $200,000 endowment to support its Study Center.

     Our inspection disclosed that the funds certified by City Lore were not given by the donors for the purpose of
     supporting an endowment and therefore not eligible to release $100,000 of Federal matching funds. The in-
     spection revealed that City Lore expended all of the nonfederal certified funds on operations, an ineligible pur-
     pose of the NEH challenge grant. Of the $100,000 of Federal matching funds released by NEH, City Lore in-
     vested only 80 percent and expended 20 percent towards long-term expenses without first requesting NEH
     approval.

     During the inspection, we requested input from the Office of Challenge Grants on the eligibility of City Lore’s
     request for funding from a certain foundation. The program staff agreed with the OIG that, because an endow-
     ment had not been established, the request and the resulting $100,000 donation certified to NEH was not eligi-
     ble for matching. The OIG advised City Lore that they were required to refund to NEH the $100,000 of Federal
     matching funds questioned in the inspection.


                                                 Overhead Desk Reviews

     The OIG performs overhead desk reviews (ODRs) for grantees requiring indirect cost rates. The reviews are
     done in accordance with the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
     The OIG sends the results of the ODRs to the Assistant Chairman for Planning and Operations, who negotiates
     the indirect cost rates with the grantees. We completed four reviews during this period. (See page 2).




NEH OIG Semiannual Report                                    7                                                  April 2007
                                   AUDIT AND REVIEW ACTIVITIES

                                       EXTERNAL AUDITS/REVIEWS (Continued)


                                                Single Audit Act Reviews

       During fiscal year 2007, more than 80 percent of NEH’s expenditures were payments made to grantees.
       The Single Audit Act Amendment of 1996 covers many NEH grantees. Grantees expending $500,000 or
       more in Federal dollars per annum are required to obtain an OMB Circular A-133 audit. The objective of
       the audit is to determine whether the recipients expend Federal funds according to applicable laws and
       regulations. The OIG receives OMB Circular A-133 reports from other Federal agencies (primarily the De-
       partment of Health and Human Services), state and local government auditors, independent public ac-
       countants, and grantees.

       During the six-month period ended September 30, 2007, we reviewed 82 OMB Circular A-133 audit reports.
       None of the reports contained findings that required reporting by the OIG to NEH management.


                                                  WORK IN PROGRESS

       Desk Reviews of Documentation Related To Salaries and Wages Charged to NEH Grants

                Fine Arts Museum of San Francisco
                Connecticut Historical Society Mid-Atlantic Arts Alliance
                The Library of America


       Overhead Desk Reviews

                American Philosophical Society
                The New York Public Library
                The Oregon Historical Society
                The Foundation of the American Institute for Conservation of Historic and Artistic Works
                The Huntington Library




NEH OIG Semiannual Report                                     8                                            April 2007
                                      INVESTIGATIVE ACTIVITIES
                                                      BACKGROUND
  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible vio-
  lations of criminal or civil laws, administrative regulations, and agency policies, which relate to the programs
  and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means
  of receiving allegations or complaints from employees, grantees, contractors, and the general public. The OIG
  has obtained assistance from other OIGs, the Federal Bureau of Investigation, the Postal Inspection Service,
  and other investigative entities as necessary.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determina-
  tion of the appropriate action to take. The result could be an audit, an investigation, a referral to another NEH
  office or division, a referral to another Federal agency, or no action.

                                               OPEN AT APRIL 1, 2007

  Two matters were open at April 1, 2007. One concerns a Misconduct in Research situation involving an organiza-
  tion that received an NEH grant in 1990. The other matter involved an NEH grantee; however, the grantee took
  action to correct the situation and we closed our file.

                                         CONTACTS DURING THE PERIOD

  Eight “Hotline” contacts were received during this six-month period. Two were referred immediately to other
  OIGs, three related to internal matters, and three affected grantees. Two internal contacts concerned the same
  allegation. After our investigation, we found no evidence supporting the charge. We subsequently received the
  same allegation which was submitted to the General Accountability Office (GAO). We informed GAO that the
  matter was investigated and the file was closed. The other internal contact alleged that an employee’s proposed
  travel was more of a personal trip than a NEH business trip. The trip was cancelled. We recommended that the
  office head and the staff person involved take training regarding Federal travel. In addition, the OIG followed up
  by reviewing the policies and procedures of all NEH program offices and divisions.
  We issued an advisory memorandum to the NEH chairman.

  The first grantee-related issue concerned an incident at a particular institution, not an NEH grant. We brought the
  matter to the attention of the organization’s president and after receiving his response we closed the file. The sec-
  ond grantee matter concerned a challenge grant. After speaking with the head of the organization and writing
  several letters, the grantee refunded $50,000, the amount NEH provided them. The third matter also concerned a
  challenge grant, and additional information must be obtained before a final decision can be made.

                                           OPEN AT SEPTEMBER 30, 2007

  Two contacts have not been closed as of the end of the reporting period. The first concerns the Misconduct in
  Research issue, and the other concerns the challenge grant.

                             MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

  We did not refer any issues during the period.

                                      HOTLINE AND PREVENTION ACTIVITIES

  We maintain a local Hotline phone number, an agency e-mail address, and an internet address to provide addi-
  tional confidentiality for those persons bringing matters to the attention of the OIG. We continue to issue agency-
  wide e-mail messages informing NEH staff of violations that are reportable to the OIG. We also send e-mail mes-
  sages several times during the year to inform NEH staff about the OIG operations. Posters advising staff to con-
  tact the OIG are displayed throughout the agency’s facilities.

                                                ANONYMOUS E-MAIL

  We have on the NEH intranet and the internet a system for staff, grantees, contractors, etc. to report waste, fraud,
  abuse, and mismanagement in an anonymous manner.

NEH OIG Semiannual Report                                   9                                                 April 2007
                            INVESTIGATIVE ACTIVITIES


                              SUMMARY OF INVESTIGATION ACTIVITY



                                Open at beginning of period         2


                             Matters brought to the OIG during
                                    the reporting period            8

                                                                    10
                                 Total investigative contacts

                            Closed, referred, or no action needed
                                 during the reporting period        8


                                   Open at end of period            2




NEH OIG Semiannual Report                          10                    April 2007
                                              OTHER ACTIVITIES

                                    PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                             INTEGRITY AND EFFICIENCY

 In 1992, the President established the Executive Council on Integrity and Efficiency (ECIE) to coordinate and imple-
 ment government-wide activities to combat fraud and waste in Federal programs and operations. OIG staff regu-
 larly attend ECIE meetings and provide input to the ECIE. The Inspector General is a member of the Audit Commit-
 tee of the President's Council on Integrity and Efficiency, and participates in the Misconduct in Research meetings.
 In addition, he is a member of Grant Fraud Committee, a subcommittee of the National Procurement Fraud Task
 Force. The Deputy IG participates in the Single Audit Round Table and the Federal Audit Executive Council
 (FAEC). One senior auditor attends the monthly meetings of the Financial Statement Audit Network, a subcommit-
 tee of the FAEC.


                                   REGULATORY AND LEGISLATIVE REVIEWS

 The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legis-
 lation and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the
 economy and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent
 and detect fraud and abuse. During this period, no reviews were required.


                                           WORKING WITH THE AGENCY

 OIG staff attend various NEH meetings - panel meetings (where grant applications are reviewed by outside consult-
 ants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immediate
 staff), and the National Council meeting. Also, the IG or Deputy IG attended the Chairman's monthly policy group
 meetings.

 The Office of Inspector General contributes to the discussions; however, the office does not participate in policy-
 making.

                                           OIG INTERNET AND INTRANET

 The OIG has posted several semiannual reports on the internet and on the NEH Intranet. The reports are accessi-
 ble through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

 To advance the NEH staff's recognition of the OIG mission and responsibilities, we provide links to several other
 Federal agencies such as the Office of Management and Budget, the General Accountability Office, the Office of
 Government Ethics, and the IGNET.


                                             TECHNICAL ASSISTANCE

 Throughout the reporting period, OIG staff provided telephone technical help to NEH grantees and independent
 public accountants about various matters. Generally, these involve the preparation of indirect cost proposals and
 implementation of the audit requirements of OMB Circular A-133.


                  ASSISTANCE TO THE INSTITUTE OF MUSEUM AND LIBRARY SERVICES (IMLS)

 The National Endowment for the Humanities OIG has an interagency agreement to provide investigation assistance
 to the IMLS. The agreement allows the NEH OIG to recover all direct and other costs that meet the legal require-
 ments of the Economy Act. During this period, the OIG provided assistance on several matters.




NEH OIG Semiannual Report                                   11                                                 April 2007
                                   OTHER ACTIVITIES (Continued)

                               EXTERNAL PEER REVIEWS/QUALITY CONTROL REVIEWS

 The Inspector General Act of 1978, as amended, requires each OIG to have its audit operation evaluated every
 three years by another Federal OIG. The reviews are conducted in accordance with the guidelines established by
 the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and Efficiency. The objec-
 tive is to determine whether the internal quality control system was adequate as designed and complied with to pro-
 vide reasonable assurance that applicable auditing standards, policies, and procedures were met for the period re-
 viewed.


                Quality Control Review of the U.S. Commodity Futures Trading Commission (CFTC)
                                   Office of Inspector General Audit Operations
                                                September 20, 2007

 We conducted a peer review of audit operations at the CFTC OIG during this semiannual period---evaluating re-
 ports that the office published for the year ended September 30, 2006, which included the FY 2005 CFTC financial
 statements audit, and assessing its internal quality control program and relevant policies and procedures.

 We determined that the CFTC OIG’s audit function complied with professional auditing and quality control stan-
 dards for the Federal government. The CFTC received an unqualified opinion, although we made several sugges-
 tions for improving their audit operation.

 CFTC stated they would further study our recommendations before taking any action.


                                Quality Control Review of the NEH OIG Audit Operations

 The U.S. Consumer Product Safety Commission (CPSC) performed a peer review of the NEH OIG audit organiza-
 tion for the year ended March 31, 2007. The review evaluated reports that our office published, including the FY
 2006 NEH financial statements audit, and assessed our internal quality control program and relevant policies and
 procedures.

 CPSC determined that the NEH OIG’s audit function complied with professional auditing and quality control stan-
 dards for the Federal government. The CPSC gave us an unqualified opinion while making a few suggestions for
 improving our audit operation. We agreed with the suggestions and are putting them into effect.




NEH OIG Semiannual Report                                  12                                                April 2007
                            FYE 2007 MANAGEMENT CHALLENGES
                                    SEPTEMBER 28, 2007

 Continue Progress on the Agency Financial Management System

 NEH has made significant progress with the web-based accounting system developed by the Oracle Corporation
 and the related internal controls.

 The most significant area of progress was the elimination of the separation of incompatible duties problem involv-
 ing the procurement/contracting function and the accounting office. However, a weakness remains due to the
 extent of the Administrative Services Officer’s handling of procurement transactions and the individual’s oversight
 of such transactions.

 Several serious problems with the new accounting system continue. The development of an interface was a ma-
 jor improvement whereby obligations for grants are posted directly to the Oracle accounting system from the
 Grants Management System. The interface resulted in a reduction in the number of errors. However, problems
 continue. Expenditure of funds have been charged and paid against accounting codes with zero obligation bal-
 ances. Payments of funds against accounts without balances are serious errors.

 Although a great deal of progress has occurred concerning program fund reports and travel reports provided to
 the divisions, most still prefer to receive the reports monthly.

 In addition, progress made by the NEH accounting officer and the new system accountant gives the agency the
 ability to utilize more functions of the accounting system correctly in a more timely and efficient manner.

 Strengthen Information Security

 NEH has taken much needed action to improve the security of the system. The agency is following OMB and
 NIST regulations more seriously.

 NEH is providing computer hardware and software to the National Archives and Records Administration (NARA)
 for NARA’s use in managing their grant administration program. NEH has determined that security features, such
 as firewalls, minimize the security risks of these additional responsibilities.


 Continue to Improve Planning and Performance Measurement in Accordance with the Results Act

 Over the past several years, NEH has made progress. However, more energy is required to make the case for
 NEH stronger. The OIG recognizes that measuring the benefits of many NEH programs is difficult. In many
 areas, NEH places more emphasis on outputs than outcomes. NEH should gradually have the divisions collect
 outcome-type data from grantees. As an example, while we have learned that a high school teacher uses knowl-
 edge gained at a summer seminar during instruction to approximately 250 students a year; we do not know how
 the students are affected. Do they read more books on the topic, are they thinking about taking more courses on
 the same topic in college? What is the actual effect of a summer seminar on the students of the teacher attend-
 ing the seminar? Further, what does the school principal and the department chair see as the outcome of the
 teacher taking the seminar?


 Information Resources Management

 NEH has made and continues to make significant progress on e-gov and is moving towards the eventual goal of
 having grantees submit complete proposals electronically, reviewing the proposals on-line, and processing pro-
 posals electronically. This long-term e-government project of the President’s Management Agenda has several
 agencies working together. We will be listing this as management challenge until NEH processes a significant
 amount of complete applications through e-gov in an economical and efficient manner.



NEH OIG Semiannual Report                                  13                                                 April 2007
                             FYE 2007 MANAGEMENT CHALLENGES
                               SEPTEMBER 28, 2007 (Continued)

  Human Capital

  The Comptroller General of the United States has cited human capital as a high-risk area. Similar to many Fed-
  eral agencies, NEH will be facing the retirement of a large amount of staff within the next several years. One of-
  fice, the Office of Grant Management, has the possibility of having a complete turnover of staff within the next two
  to six years. NEH management recognizes this problem and has begun taking action. Nevertheless, a much
  more proactive plan for staffing the office has to take place. Several staff that has worked in the office for 30
  years or more will be retiring soon.

  NEH’s policy is to staff the OGM with employees from other NEH offices. While this is commendable, it may not
  be the best long-term solution. Generally, hiring younger employees with no background in grant management
  will take years to get the office’s production to a viable working level. This occurs because the retiring staff are
  very familiar with the work and produce at a very high level. This may have a negative effect on our grantees if we
  cannot take care of business in a timely manner.

  NEH’s challenge is to evaluate how retirements will transform the agency due to a loss of institutional memory.
  The time has come for the agency to learn if workload and mission realignments would benefit the agency. This
  can be accomplished by workflow reviews for the entire agency.


  Continuity of Operations

  After September 11, 2001, the agency began Continuity of Operations Planning (COOP); however, a formal plan
  has not been completed and distributed to NEH staff. Last year we faced a flood problem at the Internal Revenue
  Service building (our building’s supplier of air conditioning). Excellent work by NEH staff saved the agency from
  encountering many problems. The Administrative Service Officer worked diligently with the building’s owner
  (General Services Administration) to secure temporary air conditioning and heating units to service the building.
  The system in place to notify employees of the building’s status performed extremely well. Most of the staff did
  not come to work for several days. However, payments to grantees and staff were on time.

  A COOP is a valuable tool for NEH readiness for a sudden event where the staff may not be in a position to work
  at the Old Post Office Building. NEH needs a plan that will have the staff working within an acceptable timeframe
  if a manufactured or natural disaster prevented employees’ admission to the building.




NEH OIG Semiannual Report                                   14                                                April 2007
                            PRIOR AUDIT REPORTS UNRESOLVED


   •    Several recommendations from prior FISMA and Information Technology Security reviews remain to
        be addressed. The staff of the NEH Office of Information Resources Management is currently working
        on implementing some of the recommendations.

   •    A finding disclosed in the Independent Auditor’s Report on the financial statements for September 30,
        2006 is still open. NEH management has indicated that they are taking action to resolve the issue.

   •    An opinion from the Office of the General Counsel is required in order to close OIG-06-02 (IA), Audit of
        the Selection, Purchase and Implementation of the Oracle Accounting System, issued July 19, 2006.




NEH OIG Semiannual Report                                   15                                                     April 2007
                                                  TABLE I

                               REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews……………………………… 11

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 9

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Reports Issued………..……………………………………… 3

       Section 5(a)(7)        Summary of Reports Issued.………………………………………. 4-8

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 17

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 17

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… 15

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…. *



        * None this period




NEH OIG Semiannual Report                                 16                                          April 2007
                                                      TABLE II
                                         INSPECTOR GENERAL-ISSUED REPORTS
                                               WITH QUESTIONED COSTS


                                                                              Number     Questioned     Unsupported
                                                                            Of Reports    Cost            Cost
         A. For which no management decision has been made by the                  -0-     $ -0-          $-0-
            commencement of the reporting period.

         B. Which were issued during the reporting period.                         -1-    $100,000        $-0-

                                     Subtotals (A+B)                               -1-    $100,000        $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -0-     $ -0-          $ -0-

                  ii.   Dollar value of costs not disallowed (grantee              -0-     $ -0-          $ -0-
                        subsequently supported all costs).

                  iii. Dollar value of costs not disallowed based on the           -0-     $ -0-           $ -0-
                       “Value of Services Received.”

         D. For which no management decision has been made by the                  -1-    $100,000        $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within               -0-     $ -0-          $ -0-
            six months of issuance.




                                                     TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                                      Number         Dollar
                                                                                                      Of Reports     Value

         A. For which no management decision has been made by the commencement                         -0-         $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                             -0-         $-0-

         C. For which a management decision was made during the reporting period.                       -0-        $-0-

                  i. Dollar value of recommendations that were agreed to by management.                            $-0-

                  ii. Dollar value of recommendations that were not agreed to by                                   $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.               -0-        $-0-




NEH OIG Semiannual Report                                       17                                                 April 2007
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   18                                            April 2007
                               National Endowment for the Humanities

                                        Office of Inspector General

                                                 Strategic Plan

                                                  2007 - 2012

                                                  Introduction

   To enhance the effectiveness of the Office of Inspector General (OIG) at the National Endowment for
   the Humanities (NEH) and to ensure effective audit coverage of NEH programs and operations, we have
   developed the following strategic plan. Our primary goal is to improve the programs, operations, poli-
   cies and procedures of the NEH. As part of our planning process, we have continual contact with senior
   managers and program officials to identify those areas where we can best serve their needs. Our strate-
   gic planning efforts will be on-going and we will review the strategic plan biannually.


                                        Authority and Responsibility
   On October 18, 1988, former President Reagan signed into law the Inspector General Act Amendments
   of 1988, Public Law 100-504. In this legislation, Congress established Offices of Inspector General in
   several departments and in thirty-three agencies, including the NEH. The NEH Inspector General is ap-
   pointed by the Chairman of the NEH. The independence of the IG is an important aspect of the Act.
   For example, the IG:

           •   cannot be prevented from initiating, carrying out, or completing an audit or investigation, or
               from issuing any subpoena;

           •   has access to all records of the agency;

           •   reports directly to the Chairman, and can only be removed by the Chairman, who must
               promptly advise Congress of the reasons for the removal; and

           •   reports directly to Congress.




NEH OIG Semiannual Report                                 19                                             April 2007
    The OIG has the responsibility and authority to:

            •    conduct audits and investigations;

            •    provide leadership and coordination, and recommend policies to promote efficiency and effec-
                 tiveness and to prevent fraud;

            •    keep the Chairman and Congress fully and currently informed of problems and deficiencies;
                 and

            •    comply with governmental auditing standards.


    The Act requires the IG to report semiannually to the Chairman and Congress. The report is provided to
    the Chairman, who may comment on the report. The report must be forwarded to Congress within thirty
    days. Serious or flagrant problems can be reported anytime to the Chairman, who may comment but
    must transmit the report intact to Congress within seven days of receipt.


                                       Mission/Vision/Value Statement

    Mission

    The mission of the Office of Inspector General is to provide professional audit, review, investigative,
    inspection, and advisory services to promote economy, efficiency, and effectiveness and to detect and
    prevent fraud, waste, and mismanagement in NEH programs and operations.


    Vision

    The Office of Inspector General aspires to maintain a reputation for professional competence, leader-
    ship, and integrity. We strive to achieve our goals through self-examination and a teamwork environ-
    ment that fosters professional development, open communication, and creativity.


    Value Statement

    We have a commitment to independence and excellence in the quality of our services. This commit-
    ment is characterized by integrity, fairness, cooperation, creativity and respect both within and outside
    the OIG.




NEH OIG Semiannual Report                                20                                         April 2007
                                 National Endowment for the Humanities
                                      Mission Statement and Goals

   The mission statement of the National Endowment for the Humanities (NEH) is as follows:

            Because democracy demands wisdom, the National Endowment for the Humanities serves and
            strengthens our Republic by promoting excellence in the humanities and conveying the lessons
            of history to all Americans.

   The NEH has identified three (3) major goals and objectives. They are as follows:

   Goal 1:             To advance knowledge and understanding in the humanities in the United States.

   Objective 1: Facilitate basic research and original scholarship in the humanities.


   Objective 2: Strengthen teaching and learning in the humanities in elementary and secondary schools
   and higher educational institutions across the nation.


   Objective 3: Preserve and increase the availability of cultural and intellectual resources essential
   to the American people.


   Objective 4: Provide opportunities for Americans to engage in lifelong learning in the humanities.


   Objective 5: Strengthen the institutional base of the humanities.


   Objective 6: Maintain and strengthen partnerships with the state humanities councils.


   Objective 7: Enhance the teaching, study, and understanding of the nation’s history, culture, and
   principles.


   Objective 8: Develop collaborative partnerships with individuals and institutions in support of the
   humanities.

   Objective 9: Stimulate third-party support for humanities projects and programs.

   Goal 2:            To broaden public awareness of, access to, and support for the humanities.

   Objective 1: Increase awareness of the importance of the humanities in American life.




NEH OIG Semiannual Report                                21                                            April 2007
    Objective 2: Extend the reach of the humanities.

    Goal 3:            To enhance quality of service and efficiency of operations.

    Objective 1: Provide effective and results-oriented service to the American people.


    Objective 2: Recruit and retain a diverse and results-oriented work force.


                                   Office of Inspector General - Goals
    To accomplish the OIG mission, we have adopted three (3) major goals. Possible strategies have
    been included for each goal. We obtained ideas and suggestions from a variety of sources includ-
    ing OIG staff and other OIGs.


    Goal 1:            Help the NEH achieve its desired goals by providing audit and investigative ser-
                       vices of significant benefit to NEH programs and operations, while ensuring the
                       integrity and reliability of OIG work. In addition to providing the traditional audit
                       and investigative services, we are committed to providing advisory and assistance
                       services in response to requests from NEH management, NEH staff, the community
                       of NEH grant recipients, and independent public accountants.

                       Strategy:

                              ♦    Solicit NEH and Congressional input in planning OIG activities.

                              ♦    Develop internal planning mechanisms to support NEH goals and priori-
                                   ties.

                              ♦    Identify specific targets for OIG review that are the most cost-effective.


    Goal 2:            Increase the OIG’s positive impact on the NEH’s accomplishments by emphasizing
                       program integrity and performance, safeguarding and leveraging available re-
                       sources, and reporting fairly the results and conclusions resulting from OIG efforts.

                       Strategy:

                              ♦    Focus OIG attention in the following areas:

                                      ⇒   managing change;
                                      ⇒   resource allocation in relation to policy objectives;
                                      ⇒   delivery of client service;
                                      ⇒   causes of fraud and inefficiency; and,
                                      ⇒   automation and communication.
                                      ⇒   Identify factors that influence organizational change and develop
                                          short and long term plans to address them.

NEH OIG Semiannual Report                                   22                                                  April 2007
 Goal 3:            Improve the timeliness and quality of OIG performance by adopting more efficient, effec-
                    tive, and innovative processes within the OIG.

                    Strategy:

                            ♦   Conduct quality assurance programs.

                            ♦   Comply with applicable statutory guidelines and standards.

                            ♦   Set realistic and appropriate milestones.

                            ♦   Evaluate results of OIG products and services and identify, as appropriate, les-
                                sons learned to improve timeliness and quality.

                            ♦   Conduct follow-up reviews to determine if intended results have been achieved.




NEH OIG Semiannual Report                                  23                                                April 2007
                                   Audit, Inspections and Reviews


   External Efforts
   Our work will include general audits to evaluate the overall effectiveness of the grant programs, spe-
   cific audits to measure compliance with applicable laws and grant terms, and review of IPA audits to
   identify specific problems and general trends. We will also react to specific requests from NEH offi-
   cials and other interested parties.

   Internal Efforts
   A central emphasis for all of our work will be to determine if the agency’s policies and procedures
   are consistent and fair across all of the various programs. All of our audits will contain this general
   objective and will provide data for us to develop systemic recommendations.

   We will perform internal reviews of the NEH’s operations. This approach will provide a knowledge
   base for our understanding of program policies and procedures, and provide us with an understanding
   of the goals, operational procedures, and accomplishments of each program. We will also perform
   tests of grantees to evaluate performance and measure success.

   We will also review the agency’s various management systems and provide an opinion on their effi-
   ciency and effectiveness. In addition, we will evaluate whether the controls are adequate to safe-
   guard resources and get maximum value for the resources expended. In this context, each year we
   will systematically examine, in collaboration with NEH management, selected portions of NEH inter-
   nal operations. We will select the areas to be reviewed based on their relative risk. Internal systems
   to be considered are systems such as information resources management, and contract and grant man-
   agement.


   Required Audits

   On an annual basis, we are subject to perform audits, inspections, reviews, complete forms, and
   analyze laws as requested by OMB, Congress, GAO, and the PCIE/ECIE.

   Federal Information Security Management Act (FISMA)

   FISMA requires that the OIG annually perform an independent evaluation of the information security
   program and practices of the agency to determine the effectiveness of such program and practices and
   report the results of the evaluation to the Office of Management and Budget (OMB) with the
   agency’s budget submission. The OIG also reviews segments of the NEH information systems.
   Guidance is issued annually by OMB on how agencies and OIG should report on FISMA.




NEH OIG Semiannual Report                               24                                                   April 2007
                               Hotline Allegations and Investigations

   Financial Statements

   The Accountability of Tax Dollars Act of 2002, Public Law 107-289, requires NEH to prepare and sub-
   mit to Congress and the Director of the U.S. Office of Management and Budget (OMB) audited finan-
   cial statements annually. OMB issues annual updates on guidance for the audit of the financial state-
   ments. An independent public accountant (IPA) has been engaged to perform the audit, as selected by
   the OIG. The OIG monitors the IPA’s performance and reviews the IPA’s workpapers.

   The IG Act of 1978, as amended, provides that the IG may receive and investigate complaints or infor-
   mation from NEH employees, grantees, and contractors.

   At NEH, due to our limited resources, we have a reactive investigation program. In 2006, the OIG pro-
   vided the state humanities councils information on reporting waste, fraud, abuse and mismanagement.
   However, due to limited travel funds, we have no idea if the information was displayed in the intended
   offices. The primary sources of complaints are employees and grantee staff. We have a small work-
   load from these complaints; however, they have had an impact on our audit workload. We have a pol-
   icy of investigating all valid complaints, and our investigations are conducted in a thorough, timely,
   careful, and efficient manner.

   The OIG has a hotline with a local telephone number. Each instance reported to the OIG must be
   evaluated to assess the potential impact and merits of the complaint. In some cases, the complaint may
   be referred to other NEH officials. In others, an audit or a formal investigation may be necessary. OIG
   staff will perform the preliminary review and any audit work required. Currently, the IG works on the
   investigation if a complaint has merit.

                                  Advisory and Assistance Services
   In the past, we have received special requests to audit a specific entity, perform a review to answer a
   question or resolve a problem. These requests cannot be planned, but to provide maximum service to
   NEH, we will respond to any and all requests as timely as resources permit. These services are pro-
   vided to NEH management, NEH staff, the community of NEH grant recipients, and independent pub-
   lic accountants.

   Other Work

   Review of Compliance with the Federal Managers’ Financial Integrity Act (FMFIA)

   The revised OMB Circular A-123, Management’s Responsibility for Internal Control dated December
   21, 2004, requires NEH management to develop and maintain effective internal controls and to assess
   those controls annually. NEH is not subject to Appendix A of the revised circular. Beginning with
   Fiscal Year 2007, the OIG will review the agency’s annual assessment of its internal controls.

   Under the original Circular A-123, Federal Mangers’ Integrity Act of 1982, Paragraph 6c and d, the
   Inspector General evaluated and provided technical assistance, and advice to the agency head as to
   whether the agency’s review and evaluation process was conducted in accordance with the circular’s
   requirements. The OIG’s evaluation was performed on an annual basis.

NEH OIG Semiannual Report                             25                                                April 2007
                                           Strategic Issue Areas

      Issue Area 1: Program Management/Grant Delivery

      This issue centers around whether NEH is delivering the best grants to the American public while
      being efficient, economical and effective. This includes the guideline booklets produced; informa-
      tion and guidance given to potential applicants; application receipt and recording; panel selection
      and review; council committee book write-ups; pre-council, council, and post-council meetings; is-
      suance of award and rejection letters; post-award monitoring; and grant close-out.


      Issue Area 1.1:       Are applications processed and evaluated in accordance with agency poli-
                            cies?

              Strategy:     The OIG will survey and document existing practices and procedures. Subse-
                            quent efforts will focus on areas in which compliance may be improved.


      Issue Area 1.2:       Application processing and grant monitoring (workload management).

             Strategy:      Conduct surveys within each division to ascertain:

                            Are workloads too heavy?
                            Time expended between receipt of a final narrative report, review of the re-
                               port, and grant close-out? Level of satisfaction that the grant objective
                               was met?
                            Workload management suggestions?
                            Responsibility for routine administrative tasks?


      Issue Area 1.3:       Does the Agency ensure that grantees comply with the terms and condi-
                            tions applicable to their respective awards? (Post-award monitoring)

            Strategy:       The OIG will conduct surveys to ascertain if each division/office has written
                            policies and procedures to ensure grantee financial and administrative compli-
                            ance. Some grantees are at greater risk ~ what does NEH do?

                            The OIG will continue to review grantee implementation of corrective actions
                            in response to cited instances of noncompliance and advise NEH management
                            as to the status and effectiveness of grantee actions.


      Issue Area 1.4:       How often and when does each division perform program evaluations?
                            What are the results of these reviews? How are the results of these re-
                            views incorporated into the agency’s strategic planning process.

             Strategy:      Conduct surveys within each division.


NEH OIG Semiannual Report                              26                                                  April 2007
     Issue Area 2: NEH Grant Recipients


     Issue Area 2.1:        Are grantees complying with applicable reporting requirements and the
                            terms and conditions governing their awards?

            Strategy:       The OIG will perform desk reviews of OMB Circular A-133 audit reports; on-
                            site quality control reviews of audits performed in accordance with OMB Circu-
                            lar A-133; and limited-audits of grantees not subject to the audit requirements
                            of OMB Circular A-133.

                            The OIG will perform audits of known high-risk grantees (state humanities
                            councils and media organizations).

                            The OIG will report systemic problem areas to NEH and grantee      manage-
                            ment.


     Issue Area 2.2:        Are grantees, whose awards provide for indirect costs, complying with the
                            applicable OMB directives in preparing their indirect cost rate proposals?

            Strategy:       The OIG will provide technical assistance by performing overhead desk re-
                            views of indirect cost rate proposals submitted by grantees in accordance with
                            the President’s Council in Integrity and Efficiency (PCIE) Inspection Standards.
                            The OIG forwards the reviews to the Assistant Chairman for Planning and Op-
                            erations for negotiation of the rate.




NEH OIG Semiannual Report                              27                                               April 2007
 Issue Area 3: General Administration

 General administrative functions are established to support the delivering of services ~ the award of federal
 funds. Audits, surveys, reviews and inspections are needed to answer the basic question: Are NEH’s gen-
 eral administrative functions enhancing the agency’s ability to accomplish its mission? Factors to be con-
 sidered are economy, efficiency and effectiveness.

 General Administrative Functions:

          Administrative Services (Procurement/Facility Management)
          Human Resources
          Information Resources Management
          Accounting
          Grant Management
          Strategic Planning
          Equal Employment Opportunity Program
          Office of the Chairman
          Office of Communications
          Office of Publications
          Office of the General Counsel

 Issue Area 3.1:            Do procurement actions comply with federal and agency requirements?

        Strategy:           The OIG will review the agency’s procurement function considering changes in the
                            federal procurement law.

 Issue Area 3.2:            Is information maintained by the agency’s timekeeping/payroll system accurate?

        Strategy:           The OIG will audit timekeeping/payroll system data input. The OIG will also review
                            timekeeping internal controls.

 Issue Area 3.3:            There are constant improvements in technology and changes in information re-
                            quirements and resources.

        Strategy:           The OIG will continue to assist management by participating in task groups and peri-
                            odically reviewing and commenting on system implementation issues. The OIG will
                            continue to perform reviews to assess the agency’s efforts to secure electronic infor-
                            mation and systems in accordance with the Federal Information Security Manage-
                            ment Act (FISMA).

 Issue Area 3.4:            Does the agency’s financial management system provide the information needed
                            to monitor costs and expenditures in accordance with the requirements and ini-
                            tiatives of Congress, OMB, and the Department of Treasury? Is the information
                            generated by the agency’s financial management system auditable?

       Strategy:            The OIG will conduct audits to verify the propriety of transactions, the validity of
                            account balances, and the accuracy of financial reports. This will be done to aug-
                            ment the IPA’s limited testing of transactions done during the audit of the financial
                            statements.

NEH OIG Semiannual Report                                  28                                              April 2007
